  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AICPA                 American Institute of Certified Public Accountants
GAS                   Government Auditing Standards
OMB                   Office of Management and Budget
SOP                   Statement of Position
         Office of the Inspector General of the Department of Defense
Report No. D-2003-6-002                                               November 8, 2002
  (Project No. D2002-OC-0207)

              Summary of Quality Control Reviews of Office of
              Management and Budget Circular A-133 Audits

                                Executive Summary

Who Should Read This Report and Why? This report is intended for Federal agencies,
non-Federal entities, independent public accounting firms, and government auditors that
award, receive, and audit Federal awards subject to audit requirements of the Single
Audit Act and Office of Management and Budget (OMB) Circular A-133, “Audits of
States, Local Governments, and Non-Profit Organizations.” The report discusses audit
deficiencies our office found during quality control reviews. By identifying areas for
improvement, we hope to provide non-Federal entities and auditors tools that will
improve the quality of OMB Circular A-133 audits (single audits).

Background. The Office of the Inspector General of the Department of Defense is
responsible for assuring the quality of audits that non-Federal and Government auditors
perform. The responsibility is mandated in the Inspector General Act of 1978. This
summary report compiles the results of quality control reviews that were performed to
determine whether single audits met applicable auditing and reporting standards as well
as OMB Circular A-133 requirements.

Results. Our analysis of the quality control reviews performed between October 1, 1998,
and September 30, 2002, found that single audits that independent accounting firms and
Government auditors conducted contained deficiencies affecting the reliability of the
audits. Of the 12 reports reviewed, deficiencies were identified in the following areas:
audit planning and execution (6 reports); documentation of work performed (8 reports);
reporting requirements (2 reports); audit coordination (3 reports); and the Schedule of
Expenditures of Federal Awards presentation (3 reports).

As a result of those issues, the ability of Federal agencies to effectively monitor and
manage their programs is impaired because they cannot rely on and use the audit reports
to the maximum extent practicable. Furthermore, assurance that non-Federal entities are
managing Federal awards in compliance with laws, regulations, and contract and grant
provisions is reduced. Improvement in audit quality is needed before Federal agencies
can be expected to rely on single audits as a tool for monitoring and managing Federal
programs.

Management Comments. This report is for informational purposes only and contains
no recommendations; therefore, no written response to this report is required.
Table of Contents

Executive Summary                                      i

Background                                            1


Objective                                             3


Finding
     Quality Control Reviews                           4

Appendixes
     A.   Scope and Methodology                        8
     B.   Listing of Quality Control Review Reports    9
     C.   Matrix of Audit Quality Issues              11
     D.   Federal Award Expenditures                  12
     E.   Report Distribution                         13
Background
    Single Audit Requirements. The Single Audit Act, Public Law 98-502 as
    amended (Single Audit Act) and OMB Circular A-133 are intended to improve
    the financial management of State and local governments and non-profit
    organizations that receive Federal awards. The Single Audit Act and OMB
    Circular A-133 establish a uniform set of auditing and reporting requirements for
    all of the Federal award recipients required to obtain a single audit. OMB
    Circular A-133 establishes policies that guide implementation of the Single Audit
    Act and provides an administrative foundation for uniform audit requirements of
    non-Federal entities that administer Federal awards. OMB Circular A-133
    requires that Federal departments and agencies rely on and use the single audit
    work to the maximum extent practicable to monitor and manage Federal
    programs. Entities that expend $300,000 or more of Federal awards in a fiscal
    year are subject to the Single Audit Act and the audit requirements in OMB
    Circular A-133 and, therefore, must either have an annual single or program-
    specific audit performed under Government Auditing Standards (GAS). To meet
    the intent of the law and OMB Circular A-133 requirements, the auditee (non-
    Federal entity) submits to the Federal Audit Clearinghouse a complete reporting
    package and a Data Collection Form on each single audit. The auditee
    submission includes the following:

       •   Data Collection Form, certified by the auditee that the audit was
           completed according to OMB Circular A-133 requirements;

       •   Financial statements and related opinion;

       •   Schedule of Expenditures of Federal Awards and related opinion;

       •   Report on compliance and internal control over financial reporting;

       •   Report on internal control over compliance with laws, regulations, and the
           provisions of contracts or grant agreements;

       •   Report on compliance with requirements for major programs and related
           opinion;

       •   Schedule of Findings and Questioned Costs;

       •   Summary Schedule of Prior Audit Findings; and

       •   Corrective action plan that addresses the report findings.

    The OMB Compliance Supplement (the Supplement) assists auditors identify
    compliance requirements that the Federal Government expects to be considered as
    part of the single audit. For each compliance requirement, the Supplement
    describes the related audit objectives that the auditor should consider in the single
    audit as well as suggested audit procedures. The Supplement also



                                          1
describes the objectives of internal control and characteristics that, when present
and operating effectively, may ensure compliance with program requirements.
The Supplement identifies the following 14 compliance requirements applicable
to most Federal programs.

       A.      Activities Allowed or Not Allowed
       B.      Allowable Costs/Cost Principles
       C.      Cash Management
       D.      Davis-Bacon Act
       E.      Eligibility
       F.      Equipment and Real Property Management
       G.      Matching, Level of Effort, Earmarking
       H.      Period of Availability of Federal Funds
       I.      Procurement and Suspension and Debarment
       J.      Program Income
       K.      Real Property Acquisition and Relocation Assistance
       L.      Reporting
       M.      Sub-recipient Monitoring
       N.      Special Tests and Provisions

American Institute of Certified Public Accountants Guidance for Performing
Single Audits. Statement of Position (SOP) 98-3, “Audits of States, Local
Governments, and Not-for-Profit Organizations Receiving Federal Awards,”
published by the American Institute of Certified Public Accountants (AICPA),
provides guidance on auditor responsibilities for conducting audits according to
the Single Audit Act and OMB Circular A-133. In general, the Single Audit
Act and OMB Circular A-133 provide auditors with an understanding of the
unique planning, performance, and reporting considerations for single audits
performed under GAS. In addition, the SOP 98-3 uses summary tables and
detailed discussions designed to provide the auditor with an understanding of the
additional general fieldwork and reporting requirements under GAS that include
the additional standards relating to quality control systems, continuing
professional education, working papers, audit follow-up, and reporting.

The SOP 98-3 emphasizes that in planning an audit to meet the requirements of
OMB Circular A-133, auditors should consider several factors in addition to those
ordinarily associated with an audit of financial statements in accordance with
Generally Accepted Auditing Standards and GAS. Several of the factors include
but are not limited to:

       •    determining that the Schedule of Expenditures of Federal Awards is
            presented fairly in relation to the financial statements;

       •    determining major programs for audit using a risk-based approach;

       •    gaining an understanding of internal control over Federal programs;

       •    testing internal control over major programs;

       •    determining compliance with laws, regulations, and the provisions of
            contract or grant agreements that have a direct and material effect on
            each major program; and

                                      2
            •   satisfying the additional requirements of the Single Audit Act and
                OMB Circular A-133 regarding working papers, audit follow-up, and
                reporting.

    Clusters of Programs. The OMB Compliance Supplement defines a cluster of
    programs as a grouping of closely related programs that share common
    compliance requirements. A cluster of programs should be considered as one
    program for the purpose of meeting OMB Circular A-133 audit requirements.
    One type of cluster of programs is categorized as Research and Development.
    The majority of DoD awards to non-profit organizations is for research and
    development programs.


Objective
    The objective of this report is to summarize the audit quality deficiencies reported
    in the 12 quality control review reports our office issued. See Appendix A for the
    discussion of the scope and methodology. Appendix B contains a listing of the
    reports our office issued.




                                         3
Quality Control Reviews
   The Inspector General of the Department of Defense (IG DoD), issued 12 quality
   control review reports of single audits between October 1, 1998, and
   September 30, 2002. The reports address the results of our quality control
   reviews of single audits independent public accounting firms and Government
   auditors performed. The objectives of the reviews were to determine whether the
   reporting package submitted to the Federal Audit Clearinghouse met the
   applicable reporting standards and whether the audits were conducted in
   accordance with applicable auditing standards and OMB Circular A-133
   requirements. A list of oversight reports is included in Appendix B. A matrix of
   audit quality deficiencies is included in Appendix C. Within the 12 oversight
   reports reviewed, we identified audit quality deficiencies in the following areas:

          •   audit planning and execution (6 reports),

          •   working paper documentation (8 reports),

          •   report requirements (2 reports);

          •   audit coordination (3) reports); and,

          •   schedule of expenditures of Federal awards presentation (3 reports).

   Of the 12 quality control review reports issued, only 3 reports did not have
   significant deficiencies. The deficiencies identified were with audits both
   independent public accounting firms and the Government auditors performed.
   Those audit quality deficiencies impair the ability of DoD awarding agencies and
   other users to rely on and use the single audit for monitoring and managing their
   programs. Auditors need to improve the quality of the single audits so that
   awarding agencies can rely on the single audit process to ensure that: non-Federal
   entities are maintaining effective internal control over Federal awards; Federal
   awards are managed in compliance with laws, regulations, and provisions of
   contract and grant agreements; and financial information is reliable. Our
   recommendations included requiring that auditors perform additional audit work,
   revise and resubmit the single audit report, and in two cases refund a portion of
   the audit fee. Appendix D provides information on Federal award expenditures
   by the non-Federal entities covered in our quality control reviews.

   Audit Planning and Execution. Of the 12 quality control review reports issued,
   6 reports identified that auditors did not adequately plan and perform the audit of
   internal controls over compliance and compliance with the requirements for major
   Federal programs. In one instance, the auditor did not have sufficient knowledge
   of the single audit requirements and was not properly supervised. OMB Circular
   A-133 requires that the audit cover the entire operation of the auditee and that the
   auditor should perform procedures to obtain an understanding of internal controls
   over Federal programs. Furthermore, the tests of controls and compliance should
   include tests of transactions and auditing procedures necessary to provide the
   auditor sufficient evidence that support an opinion or conclusion.



                                        4
Specifically, we found that the auditors did not adequately:

       •   plan review of internal controls and compliance to include all
           programs in the research and development cluster;

       •   identify major programs using the risk-based approach as OMB
           Circular A-133 requires;

       •   identify the applicable compliance requirements for review;

       •   plan and perform review of internal controls over compliance for
           applicable compliance requirements;

       •   perform sufficient audit work that supports their opinion on
           compliance with major program requirements; and

       •   perform procedures to justify relying on non-auditor work.

Those conditions occurred in a number of circumstances and for a variety of
reasons. For example, in a number of cases auditors relied on the review of
internal controls related to financial statement assertions, which are quantitative.
Auditors did not perform a separate review of internal control over Federal
program compliance requirements. A separate review, which OMB Circular
A-133 requires, would address the objectives of internal control over compliance,
which are qualitative. As a result, auditors did not have a reasonable basis for
determining the nature and extent of compliance testing needed to support the
audit opinion. In other audits, audit opinions were based on an inadequate
coverage of programs in the research and development cluster. In those cases,
auditors tested a small number of programs while inappropriately excluding many
individual programs from internal control and compliance testing. Because each
award in the research and development cluster is negotiated with specific
requirements, all of the awards should be provided an opportunity to be selected
for testing. As a result, the audit evidence was not sufficient to support the audit
opinion on the research and development cluster. During our reviews, we had to
obtain from the auditors significant verbal explanations as well as perform
additional review procedures to determine that the single audit of Federal
programs met the intent of OMB Circular A-133 requirements.

Working Paper Documentation. Of the 12 quality control review reports
issued, 8 identified problems with inadequate documentation of work performed.
GAS requires that working papers contain documentation of the work performed
that support significant conclusions and judgments, including descriptions of
transactions and records examined. The working papers did not contain sufficient
information for the reviewers to determine if the audit procedures supported the
auditor’s opinion on compliance with Federal program requirements. In each
case, extensive verbal explanations from the auditors were needed to support their
judgments and conclusions. In several cases, the auditors had to perform
additional audit work or had to prepare supplemental working papers that would
support for the reviewers the audit opinions.




                                     5
Specifically, we found that the working papers did not:

       •   include explanations for compliance requirements excluded from
           testing;

       •   contain descriptions of procedures performed or evidence reviewed to
           determine whether program expenditures on the Schedule of
           Expenditures of Federal Awards were appropriate and complete;

       •   document the auditor’s understanding of internal controls and the
           specifics of the testing of internal control over compliance
           requirements;

       •   contain descriptions of transactions tested and specific criteria used to
           test compliance with requirements; and

       •   include a description of the population, characteristics, and objectives
           of the sampling plan used to test for compliance with the compliance
           requirements.

The lack of clear documentation occurred, in part, because auditors did not adhere
to the working paper documentation requirements in GAS. Because of inadequate
documentation, the time that the IG DoD reviewers and auditors spent to establish
the adequacy of the audit significantly increased. For example, in one instance it
took the auditors 5 months to provide the IG DoD reviewers with sufficient
information to support the audit opinion on Federal programs. During this period
both the audit firm and the IG DoD reviewers spent considerable time discussing
performed audit procedures as well as preparing and reviewing additional audit
working papers.

Reporting Requirements. Of the 12 quality control review reports issued, 2
identified that the auditors did not include all of the audit findings in the Schedule
of Findings and Questioned Costs. In addition, one of those two reports did not
contain the required language for the financial statement audit report. OMB
Circular A-133 requires auditors to report as audit findings reportable conditions
in internal control over major programs and material noncompliance with the
provisions of laws, regulations, contracts, or grant agreements related to major
programs. OMB Circular A-133 also requires auditors report known or likely
questioned costs greater than $10,000 for a compliance requirement related to a
major program.

In one review, the auditors failed to report a documented finding of $70,000 in
questioned costs related to noncompliance with allowable cost criteria in OMB
Circular A-122, “Cost Principles for Non-Profit Organizations.” The auditors
also did not include the required statement that the audit was conducted in
accordance with GAS in the audit report on financial statements.

For the other review, the auditors did not report a known noncompliance with the
property standards in OMB Circular A-110, “Uniform Administrative
Requirements for Grant and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations.” Specifically, the auditors failed
to report that the university did not perform the required physical inventory and

                                      6
    was not maintaining accurate property records. As a result of reporting
    deficiencies, Federal agencies were not aware of the noncompliance issues and
    could not evaluate the impact on programs.

    Audit Coordination. Of the 12 quality control review reports issued, 3 identified
    a lack of audit coordination among the non-Federal entities, the independent
    public accounting firms, and the Government auditors. In one audit, a
    $4.7 million major program was excluded from the audit because the non-Federal
    entity did not task either the independent public accounting firm or the
    Government auditors to perform a risk based analysis of the non-Federal entity’s
    Federal programs. In another audit, the working papers demonstrated that the
    public accountants reviewed the work of Government auditors but did not
    consider the audit results in their planning process. That condition resulted in a
    duplication of audit effort. As a result of a lack of audit coordination between the
    non-Federal entities and the various audit organizations, audits did not meet the
    intent of the Single Audit Act designed to promote the efficient and effective use
    of audit resources, avoid duplication of audit effort, and reduce audit burdens on
    non-Federal entities.

    Schedule of Expenditure of Federal Awards Presentation. Of the 12 quality
    control review reports issued, 3 identified information on the Schedule of
    Expenditures of Federal Awards (the Schedule) that did not meet OMB Circular
    A-133 reporting requirements. In one single audit report, the Schedule presented
    $11 million of expenditures for multiple pass-through awards as one category,
    “Miscellaneous Pass-Through Awards.” OMB Circular A-133 requires that the
    Schedule include, at a minimum, the name of each pass-through entity award and
    the assigned award identification number. In the same report, the Schedule listed
    “Other Federal Awards” as one line item with expenditures of $13 million. The
    $13 million represents expenditures for multiple awards from separate Federal
    programs. For the research and development cluster, OMB Circular A-133
    requires that the Schedule show Federal awards by either individual programs or
    Federal agency. As a result of the deficiencies, pass-through entities and Federal
    awarding agencies cannot properly monitor programs because they cannot
    identify individual program awards.


Conclusion
    As shown in the 12 oversight reports issued between October 1, 1998, and
    September 30, 2002, independent public accounting firms and Government
    auditors need to improve the planning, execution, and reporting of single audits.
    Moreover, non-Federal entities need to better coordinate between the independent
    public accounting firms and Government auditors the single audit. Many of the
    deficiencies are consistent with the findings for the quality control reviews other
    Federal Offices of Inspector Generals performed and reported. We believe that
    the quality of single audits needs to be improved for DoD agencies and other
    users to be able to rely on and use audits as a tool for monitoring and managing
    Federal programs.




                                         7
Appendix A. Scope and Methodology
   This report summarizes the results of quality control reviews of single audits
   performed by independent public accounting firms and Government auditors.
   Our reviews were performed from October 1, 1998, through September 30, 2002.
   During that period, the OIG DoD issued 12 oversight reports. We analyzed the
   reports to identify common and recurring audit quality issues. We did not
   conduct additional fieldwork.

   Guidance Used for Quality Control Reviews. The quality control reviews were
   conducted using the 1999 edition of the “Uniform Quality Control Review Guide
   for A-133 Audits” (the Guide). The Guide applies to single audits subject to the
   requirements of OMB Circular A-133 and is the President’s Council on Integrity
   and Efficiency approved checklist used to perform quality control reviews.
   Quality control reviews are performed for the purpose of determining whether the
   single audit was conducted according to government auditing standards and
   applicable OMB Circular A-133 requirements. The quality control reviews were
   performed on single audits of non-Federal entities that expended more than
   $25 million of Federal awards in a year that DoD was the cognizant agency for
   audit. (See Appendix D for a list of Federal award expenditures for the
   non-Federal entity audits included in this report). A quality control review covers
   the general, fieldwork, and reporting standards as applied to the audit of financial
   statements and major Federal programs. Specifically, the quality control review
   focuses on the following qualitative aspects of the Circular A-133 audit:

          •   Qualification of auditors

          •   Independence

          •   Due professional care

          •   Quality control

          •   Planning and supervision

          •   Internal control and compliance testing

          •   Schedule of Expenditures of Federal Awards

          •   Schedule of Findings and Questioned Costs

          •   Summary Schedule of Prior Audit Findings

          •   Data Collection Form




                                          8
Appendix B. Listing of Quality Control Review
            Reports
   During the period of October 1, 1998, through September 30, 2002, the Inspector
   General of the Department of Defense (IG DoD) issued 12 quality control review
   reports of Circular A-133 audits. Unrestricted IG DoD reports can be accessed
   over the Internet at http://www.dodig.osd.mil/audits/reports.

   IG DoD Report No. D-2002-6-004, “Report on Quality Control Review of
   KPMG, LLP and Defense Contract Audit Agency Office of Management and
   Budget Circular No. A-133 Audit Report of Illinois Institute of Technology
   Research Institute Fiscal Year Ended June 30, 1997,” March 28, 2002

   IG DoD Report No. D-2002-6-003, “Report on Quality Control Review of
   Defense Contract Audit Agency and KPMG LLP Office of Management and
   Budget Circular A-133 Audit Report of SRI International Fiscal Year Ended
   December 25, 1999,” January 14, 2002

   IG DoD Report No. D-2002-6-002, “Report on Quality Control Review of
   Deloitte & Touche LLP Office of Management and Budget Circular A-133 Audit
   Report of Carnegie Mellon University, Fiscal Year Ended June 30, 1999,”
   December 11, 2001

   IG DoD Report No. D-2001-6-005, “Quality Control Review of Deloitte &
   Touche, LLP, and Defense Contract Audit Agency for Office of Management and
   Budget Circular A-133 Audit Report of Pennsylvania State University, Fiscal
   Year Ended June 30, 1999,” May 01, 2001

   IG DoD Report No. D-2001-6-004, “Report on Quality Control Review of
   PricewaterhouseCoopers, LLP, and Defense Contract Audit Agency for Office of
   Management and Budget Circular A-133 Audit Report of Massachusetts Institute
   of Technology, Fiscal Year Ended June 30, 1999,” March 22, 2001

   IG DoD Report No. D-2001-6-002, “Report on Quality Control Review of Grant
   Thornton LLP, for Office of Management and Budget Circular A-133 Audit
   Report of Concurrent Technologies Corporation, Fiscal Year Ended
   June 30, 1998,” February 23, 2001

   IG DoD Report No. D-2001-6-001, “Report on Quality Control Review of Arthur
   Anderson, LLP, for OMB Circular No. A-133 Audit Report of the Henry M.
   Jackson Foundation for the Advancement of Military Medicine, Fiscal Year
   Ended September 30, 1998,” February 02, 2001

   IG DoD Report No. D-2000-6-008, “Quality Control Review of
   PricewaterhouseCoopers, LLP, for OMB Circular A-133 Audit Report of Institute
   for Defense Analyses, Fiscal Year Ended September 25, 1998,” August, 14, 2000




                                      9
IG DoD Report No. D-2000-6-002, “Quality Control Review of
PricewaterhouseCoopers, LLP, California Institute of Technology, Fiscal Year
Ended September 30, 1997,” November 19, 1999

IG DoD Report No. D-2000-6-001, “Quality Control Review of
PricewaterhouseCoopers, LLP, and the Defense Contract Audit Agency,
California Institute of Technology, Fiscal Year Ended September 30, 1996,”
November 19, 1999

IG DoD Report No. PO-99-6-008, “Quality Control Review of
PricewaterhouseCoopers, LLP, Stanford University, Fiscal Year Ended
August 31, 1997,” September 08, 1999

IG DoD Report No. PO-99-6-003, “Quality Control Review of KPMG Peat
Marwick, LLP, the University of Delaware, Fiscal Year Ended June 30, 1998,”
March 26, 1999




                                   10
  Appendix C. Matrix of Audit Quality Issues

                 Planning
                   and       Working Paper      Report         Audit        Schedule
Report Number    Execution   Documentation   Requirements   Coordination   Presentation


D-2002-6-004        X             X

D-2002-6-003        X             X                                             X

D-2002-6-002                      X               X                             X

D-2001-6-005

D-2001-6-004        X                                            X

D-2001-6-002                      X               X

D-2001-6-001        X             X                              X

D-2000-6-008        X             X                              X

D-2000-6-002

D-2000-6-001

PO-99-6-008         X             X                                             X

PO-99-6-003                       X

 Total Reports      6              8              2              3              3




                                        11
Appendix D. Federal Award Expenditures

                                                Fiscal          Total Federal               DoD
          Non-Federal Entity                    Year            Expenditures             Expenditures

California Institute of Technology               1996              $1,258,649,621            $24,167,524

California Institute of Technology               1997                 209,451,263             32,729,941

Carnegie Mellon University                       1999                 141,083,649             75,109,141

Concurrent Technologies Corporation              1998                   92,877,573            90,302,605

Henry M. Jackson Foundation for the              1998                  63,944,441             53,024,213
Advancement of Military Medicine

Illinois Institute of Technology                 1997                  97,104,042             75,531,374
Research Institute

Institute for Defense Analyses                   1998                 109,951,862            109,951,862

Massachusetts Institute of                       1999                 720,518,266            391,054,495
Technology

Pennsylvania State University                    1999                293,521,6881             87,683,820

SRI International                                1999                 131,397,308             91,984,500

Stanford University                              1997                 561,717,912             54,331,576

University of Delaware                           1998                  49,940,9172            10,099,703

     Total Expenditures                                            $3,730,158,542         $1,095,970,754




1
    The $293,521,688 in Federal awards does not include $241,743,886 in Federal loans.
2
    The $49,940,917 in Federal awards does not include $40,129,355 in Federal loans.

                                                     12
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement

Department of the Air Force
Director, Office of the Assistant Secretary (Financial Management and Controller)

Department of the Army
Deputy Assistant Secretary of the Army for Financial Management & Comptroller

Department of the Navy
Chief, Office of Naval Research

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Advance Research Projects Agency

Other Federal Agencies
Director, Financial Management and Assurance, General Accounting Office

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Acquisition and Technology, Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform


                                          13
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member Cont’d
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

Other Non-Federal Organizations
Partner, KPMG, LLP
Senior Manager, Grant Thornton, LLP
Partner, Deloitte & Touche, LLP
Director, PricewaterhouseCoopers, LLP
Partner, Ernst & Young, LLP
Audit Committee, President’s Council on Integrity and Efficiency
Board of Directors, National Association of State Boards of Accountancy
Audit Committee, National Association of State Boards of Accountancy
Board of Directors, American Institute of Certified Public Accountants
Professional Ethics Executive Committee, American Institute of Certified Public
    Accountants
Analytic Services, Incorporated
Carnegie Mellon University
Concurrent Technologies Corporation
County of Sacramento
Georgia Institute of Technology
Illinois Institute of Technology Research
Institute for Defense Analyses
Massachusetts Institute of Technology
Mercer University
Midwest Research Institute
Mitretek Systems Incorporated
Oklahoma State University
Pennsylvania State University
Pomona Unified School District
South Carolina Research Authority
Southwest Research Institute
SRI International
The Aerospace Corporation
The Center for Naval Analysis Corporation
The Charles Stark Draper Laboratory Incorporated
The Henry M. Jackson Foundation for the Advancement of Military Medicine
The Mitre Corporation
The Rand Corporation
University of Dayton
University of Delaware
University of Illinois
University of New Mexico
Woods Hole Oceanographic Institution



                                          14
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of
the Inspector General of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Carolyn R. Davis
Janet Stern
Sharon N. Vasquez
Sherry D. Angwafo
Krista S. Gordon
